Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Follow-Up Audit of the Medicaid Drug Rebate Program in Vermont
August 13, 2008 | Audit A-01-08-00004
Executive Summary
The Agency of Human Services, Office of Vermont Health Access (the State agency) had not implemented the recommendations from our prior audit of the Medicaid drug rebate program in Vermont.  The State agency also did not have adequate policies and procedures for reconciling and reporting its pending drug rebate amounts on Form CMS 64.9R to ensure the accuracy of pending drug rebate amounts reported to the Centers for Medicare and Medicaid Services.  The State agency had established controls over collecting rebates on single-source drugs administered by physicians.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS